IN THE SUPREME COURT OF THE UNITED STATES

No. 20-5279
WILLIAM DALE WOODEN,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE

Pursuant to Rule 29.5 of the Rules of this Court, I certify that all parties
required to be served have been served. On May 10, 2021, I caused copies of the
Brief of F AMM as Amicus Curiae in Support of Petitioner to be served by first-class
mail, postage prepaid; through the Court's electronic filing system on those
registered with the system; and by electronic mail (as designated) on the following:
Ms. Elizabeth Prelogar
(supremectbriefs@usdoj.gov)
Acting Solicitor General
Office of the Solicitor General
United States Department
of Justice
950 Pennsylvania Avenue, N.W.
Room 5614
Washington, D.C. 20530-0001
(202) 514-2217
Counsel of Record for Petitioner

Allon Kedem
(allon.kedem@arnoldporter.com)
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Avenue, N.W.
Washington, D.C. 20001
(202) 942-6234
Counsel of Record for Respondent

~ j j .~

~apawy

Counsel of Record for Amicus

FAMM

